               Department of Veterans Affairs
               Office of Inspector General


                 Office of Healthcare Inspections

Report No. 13-00026-327




       Community Based Outpatient 

            Clinic Reviews 

                   at 

           Chalmers P. Wylie 

         Ambulatory Care Center 

            Columbus, OH 





September 26, 2013

                      Washington, DC 20420
                     Why We Did This Review
The VA OIG is undertaking a systematic review of the VHA’s CBOCs to assess
whether CBOCs are operated in a manner that provides veterans with
consistent, safe, high-quality health care.

The Veterans’ Health Care Eligibility Reform Act of 1996 was enacted to
equip VA with ways to provide veterans with medically needed care in a
more equitable and cost-effective manner. As a result, VHA expanded the
Ambulatory and Primary Care Services to include CBOCs located throughout
the United States. CBOCs were established to provide more convenient
access to care for currently enrolled users and to improve access opportunities
within existing resources for eligible veterans not currently served.

Veterans are required to receive one standard of care at all VHA health care
facilities. Care at CBOCs needs to be consistent, safe, and of high quality,
regardless of model (VA-staffed or contract). CBOCs are expected to comply
with all relevant VA policies and procedures, including those related to quality,
patient safety, and performance.

 To Report Suspected Wrongdoing in VA Programs and Operations
                     Telephone: 1-800-488-8244
                     E-Mail: vaoighotline@va.gov
  (Hotline Information: http://www.va.gov/oig/hotline/default.asp)
                                          CBOC Reviews at Chalmers P. Wylie Ambulatory Care Center



                                              Glossary
                       C&P      credentialing and privileging
                       CBOC     community based outpatient clinic
                       CDC      Centers for Disease Control and Prevention
                       EHR      electronic health record
                       EOC      environment of care
                       FPPE     Focused Professional Practice Evaluation
                       FY       fiscal year
                       MH       mental health
                       MSEC     Medical Staff’s Executive Committee
                       NC       noncompliant
                       NCP      National Center for Health Promotion and
                                Disease Prevention
                       OIG      Office of Inspector General
                       VHA      Veterans Health Administration
                       VISN     Veterans Integrated Service Network
                       WH       women’s health




VA OIG Office of Healthcare Inspections
                                                     CBOC Reviews at Chalmers P. Wylie Ambulatory Care Center



                                            Table of Contents 

                                                                                                                            Page 

Executive Summary ...................................................................................................             i


Objectives and Scope ................................................................................................             1

  Objectives ...............................................................................................................      1

  Scope and Methodology .........................................................................................                 1


CBOC Profiles ............................................................................................................        3


WH and Vaccination EHR Reviews – Results and Recommendations..................                                                    4

  WH..........................................................................................................................    4

  Vaccinations ...........................................................................................................        5


Onsite Reviews – Results and Recommendations..................................................                                    7

  CBOC Characteristics .............................................................................................              7

  C&P ........................................................................................................................    8

  EOC and Emergency Management ........................................................................                           9


Appendixes
  A. VISN 10 Director Comments .............................................................................                     11

  B. Chalmers P. Wylie Ambulatory Care Center Director Comments ......................                                           12

  C. OIG Contact and Staff Acknowledgments .........................................................                             15

  D. Report Distribution .............................................................................................           16





VA OIG Office of Healthcare Inspections
                                          CBOC Reviews at Chalmers P. Wylie Ambulatory Care Center



                                Executive Summary 

Purpose: We evaluated select activities to assess whether the CBOCs operated in a
manner that provides veterans with consistent, safe, high-quality health care.

We conducted an onsite inspection of the CBOCs during the week of August 12, 2013.

The review covered the following topic areas:

   WH

   Vaccinations

   C&P

   EOC

   Emergency Management

For the WH and vaccinations topics, EHR reviews were performed for patients who
were randomly selected from all CBOCs assigned to the respective parent facilities.
The C&P, EOC, and emergency management onsite inspections were only conducted
at the randomly selected CBOC (see Table 1).

    VISN                Facility                    CBOC Name                  Location
                   Chalmers P. Wylie
     10                                           Zanesville CBOC           Zanesville, OH
                 Ambulatory Care Center
                                     Table 1. Site Inspected

Review Results: We made recommendations in three review areas.

Recommendations: The VISN and Facility Directors, in conjunction with the
respective CBOC managers, should take appropriate actions to:

   Ensure that patients with normal cervical cancer screening results are notified of
    results within the required timeframe and that notification is documented in the EHR.

   Ensure that clinicians administer pneumococcal vaccinations when indicated.

   Ensure that clinicians document all required tetanus vaccine administration elements
    and that compliance is monitored.

   Develop a local policy for MH emergencies that reflects the CBOC’s capability and
    that staff is trained in the procedural steps of the MH emergency plan.




VA OIG Office of Healthcare Inspections                                                         i
                                          CBOC Reviews at Chalmers P. Wylie Ambulatory Care Center


Comments
The VISN and Facility Directors agreed with the CBOC review findings and
recommendations and provided acceptable improvement plans. (See Appendixes
A and B, pages 11–14, for the full text of the Directors’ comments.) We consider
recommendations 1 and 3 closed. We will follow up on the planned actions for the open
recommendations until they are completed.




                                                          JOHN D. DAIGH, JR., M.D.
                                                         Assistant Inspector General for
                                                              Healthcare Inspections




VA OIG Office of Healthcare Inspections                                                         ii
                                              CBOC Reviews at Chalmers P. Wylie Ambulatory Care Center



                                  Objectives and Scope 

Objectives
	 Evaluate whether CBOCs comply with selected VHA requirements regarding the
   provision of cervical cancer screening, results reporting, and WH liaisons.
	 Evaluate whether CBOCs properly provided selected vaccinations to veterans
   according to CDC guidelines and VHA recommendations.
	 Determine whether CBOC providers are appropriately credentialed and privileged in
   accordance with VHA Handbook 1100.19.1
	 Determine whether CBOCs are in compliance with standards of operations
   according to VHA policy in the areas of environmental safety and emergency
   planning.2

Scope and Methodology
Scope

We reviewed selected clinical and administrative activities to evaluate compliance with
requirements related to patient care quality and the EOC. In performing the reviews, we
assessed clinical and administrative records as well as completed onsite inspections at
randomly selected sites. Additionally, we interviewed managers and employees. The
review covered the following five activities:

      	   WH

      	   Vaccinations

      	   C&P

      	   EOC

      	   Emergency Management

Methodology

To evaluate the quality of care provided to veterans at CBOCs, we conducted EHR
reviews for the WH and vaccinations topic areas. For WH, the EHR reviews consisted
of a random sample of 50 women veterans (23–64 years of age). For vaccinations, the
EHR reviews consisted of random samples of 75 veterans (all ages) and 75 additional
veterans (65 and older), unless fewer patients were available, for the tetanus and



1
    VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.

2
    VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004. 



VA OIG Office of Healthcare Inspections                                                                1
                                                 CBOC Reviews at Chalmers P. Wylie Ambulatory Care Center


pneumococcal reviews, respectively. The study populations consisted of patients from
all CBOCs assigned to the parent facility.3

The C&P, EOC, and emergency management onsite inspections were only conducted
at the randomly selected CBOCs. One CBOC was randomly selected from the
56 sampled parent facilities, with sampling probabilities proportional to the numbers of
CBOCs eligible to be inspected within each of the parent facilities.4

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.




3
    Includes all CBOCs in operation before October 1, 2011.

4
    Includes 96 CBOCs in operation before October 1, 2011, that had 500 or more unique enrollees.



VA OIG Office of Healthcare Inspections                                                                2
                                                                                           CBOC Reviews at Chalmers P. Wylie Ambulatory Care Center



                                                               CBOC Profiles 

To evaluate the quality of care provided to veterans at CBOCs, we designed reviews with an EHR component to capture data for
patients enrolled at all of the CBOCs under the parent facility’s oversight.5 The table below provides information relative to each
of the CBOCs under the oversight of the respective parent facility.

                                                                                            Uniques FY             Visits FY
VISN            Parent Facility                  CBOC Name                 Locality6                                                  CBOC Size8
                                                                                              20127                  20127
                                                Franklin County
                                                                             Urban               3,433              13,552              Mid-Size
                                               (Grove City, OH)
                                                    Marion
                                                                             Rural               2,491              13,846              Mid-Size
            Chalmers P. Wylie                    (Marion, OH)
    10
          Ambulatory Care Center                    Newark
                                                                             Urban               3,302              18,639              Mid-Size
                                                 (Newark, OH)
                                                   Zanesville
                                                                             Rural               3,532              21,194              Mid-Size
                                               (Zanesville, OH)
                                                              Table 2.      Profiles




5
  Includes all CBOCs in operation before October 1, 2011.

6
  http://vaww.pssg.med.va.gov/

7
  http://vssc.med.va.gov

8
   Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).



VA OIG Office of Healthcare Inspections                                                                                                                  3
                                              CBOC Reviews at Chalmers P. Wylie Ambulatory Care Center



                     WH and Vaccination EHR Reviews 

                      Results and Recommendations 

WH
Cervical cancer is the second most common cancer in women worldwide.9 Each year,
approximately 12,000 women in the United States are diagnosed with cervical cancer.10
The first step of care is screening women for cervical cancer with the Papanicolaou test
or “Pap” test. With timely screening, diagnosis, notification, and treatment, the cancer is
highly preventable and associated with long survival and good quality of life.

VHA policy outlines specific requirements that must be met by facilities that provide
services for women veterans.11 We reviewed EHRs, meeting minutes and other
relevant documents, and interviewed key WH employees. Table 3 shows the areas
reviewed for this topic. The review element marked as NC needed improvement.
Details regarding the finding follow the table.

             NC                                       Areas Reviewed
                               Cervical cancer screening results were entered into the
                               patient’s EHR.
                               The ordering VHA provider or surrogate was notified of results
                               within the defined timeframe.
              X                Patients were notified of results within the defined timeframe.
                               Each CBOC has an appointed WH Liaison.
                               There is evidence that the CBOC has processes in place to
                               ensure that WH care needs are addressed.
                                                 Table 3. WH

There were 32 patients who received a cervical cancer screening at the Chalmers P.
Wylie Ambulatory Care Center’s CBOCs.

Patient Notification of Normal Cervical Cancer Screening Results. VHA requires that
normal cervical cancer screening results must be communicated to the patient in terms
easily understood by a layperson within 14 days from the date of the pathology report
becoming available. We reviewed 31 EHRs of patients who had normal cervical cancer
screening results and determined that 9 patients were not notified within the required
14 days from the date the pathology report became available.




9
   World Health Organization, Comprehensive Cervical Cancer Prevention and Control: A Healthier Future for 

Girls and Women, Retrieved (4/25/2013): http://www.who.int/reproductivehealth/topics/cancers/en/index.html.

10
   U.S. Cancer Statistics Working Group, United States Cancer Statistics: 1999-2008 Incidence and Mortality Web-

based report.

11
   VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010. 



VA OIG Office of Healthcare Inspections                                                                         4
                                               CBOC Reviews at Chalmers P. Wylie Ambulatory Care Center


Recommendations

1. We recommended that managers ensure that patients with normal cervical cancer
screening results are notified of results within the required timeframe and that
notification is documented in the EHR.

Vaccinations
The VHA NCP was established in 1995. The NCP establishes and monitors the clinical
preventive services offered to veterans, which includes the administration of vaccines.12
The NCP provides best practices guidance on the administration of vaccines for
veterans. The CDC states that although vaccine-preventable disease levels are at or
near record lows, many adults are under-immunized, missing opportunities to protect
themselves against tetanus and pneumococcal diseases.

Adults should receive a tetanus vaccine every 10 years. At the age of 65, individuals
who have never had a pneumococcal vaccination should receive one. For individuals
65 and older who have received a prior pneumococcal vaccination, one-time
revaccination is recommended if they were vaccinated 5 or more years previously and
were less than 65 years of age at the time of the first vaccination.

We reviewed documentation of selected vaccine administrations and interviewed key
personnel. Table 4 shows the areas reviewed for this topic. The review elements
marked as NC needed improvement. Details regarding the findings follow the table.

          NC                                      Areas Reviewed
                      Staff screened patients for the tetanus vaccination.
                      Staff administered the tetanus vaccine when indicated.
                      Staff screened patients for the pneumococcal vaccination.
           X          Staff administered the pneumococcal vaccine when indicated.
           X          Staff properly documented vaccine administration.
                                             Table 4. Vaccinations

Pneumococcal Vaccination Administration for Patients with Pre-Existing Conditions.
The CDC recommends that at the age of 65, individuals that have never had a
pneumococcal vaccination should receive one.13 For individuals 65 and older who have
received a prior pneumococcal vaccination, a one-time revaccination is recommended if
they were vaccinated 5 or more years previously and were less than 65 years of age at
the time of the first vaccination. We reviewed the EHRs of four patients with pre-
existing conditions who received their first vaccine prior to the age of 65. We did not
find documentation in any of the EHRs indicating that their second vaccinations had
been administered.

Documentation of Tetanus Vaccination. Federal Law requires that documentation for
administered vaccines include specific elements, such as the vaccine manufacturer and
12
     VHA Handbook 1120.05, Coordination and Development of Clinical Preventive Services, October 13, 2009.
13
     Centers for Disease Control and Prevention, http://www.cdc.gov/vaccines/vpd-vac/.


VA OIG Office of Healthcare Inspections                                                                      5
                                               CBOC Reviews at Chalmers P. Wylie Ambulatory Care Center


lot number of the vaccine used.14 We reviewed the EHRs of seven patients who
received a tetanus vaccine administration at the parent facility or its associated CBOCs
and did not find documentation of all the required information related to tetanus vaccine
administration in any of the EHRs.

Recommendations

2. We recommended that managers ensure that clinicians administer pneumococcal
vaccinations when indicated.

3. We recommended that managers ensure that clinicians document all required
tetanus vaccine administration elements and that compliance is monitored.




14
     Childhood Vaccine Injury Act of 1986 (PL 99 660) sub part C, November 16, 2010.


VA OIG Office of Healthcare Inspections                                                              6
                                            CBOC Reviews at Chalmers P. Wylie Ambulatory Care Center



                                 Onsite Reviews 

                         Results and Recommendations 

 CBOC Characteristics
 We formulated a list of CBOC characteristics that includes identifiers and descriptive
 information for the randomly selected CBOC (see Table 5).

                                                                         Zanesville

                          VISN                                               10

                     Parent Facility                     Chalmers P. Wylie Ambulatory Care Center
                                                               Licensed Clinical Social Worker
                                                                        Optometrist
                                                                        Pharmacist
                   Types of Providers
                                                                   Primary Care Physician
                                                                        Psychiatrist
                                                                        Psychologist
            Number of MH Uniques, FY 2012                                   531

             Number of MH Visits, FY 2012                                  2,299

                  MH Services Onsite                                        Yes
                                                                         Optometry
             Specialty Care Services Onsite
                                                                            WH
                                                                     Electrocardiogram
           Ancillary Services Provided Onsite
                                                                         Laboratory
                                                                         Audiology
                                                                         Cardiology
                                                                        Dermatology
                  Tele-Health Services                                      MH
                                                                                 15
                                                                          MOVE!
                                                                      Retinal Imaging
                                                                          Surgery
                                         Table 5. Characteristics




15
     VHA Handbook 1120.01, MOVE! Weight Management Program For Veterans, March 31, 2011.


VA OIG Office of Healthcare Inspections                                                             7
                                          CBOC Reviews at Chalmers P. Wylie Ambulatory Care Center


C&P
We reviewed C&P folders, scopes of practice, meeting minutes, and VetPro information
and interviewed senior managers to determine whether facilities had consistent
processes to ensure that providers complied with applicable requirements as defined by
VHA policy.16 Table 6 shows the areas reviewed for this topic.

           NC                                       Areas Reviewed
                         Each provider’s license was unrestricted.
                                             New Provider
                         Efforts were made to obtain verification of clinical privileges
                         currently or most recently held at other institutions.
                         FPPE was initiated.
                         Timeframe for the FPPE was clearly documented.
                         The FPPE outlined the criteria monitored.
                         The FPPE was implemented on first clinical start day.
                         The FPPE results were reported to the MSEC.
                                        Additional New Privilege
                         Prior to the start of a new privilege, criteria for the FPPE were
                         developed.
                         There was evidence that the provider was educated about FPPE
                         prior to its initiation.
                         FPPE results were reported to the MSEC.
                                          FPPE for Performance
                         The FPPE included criteria developed for evaluation of the
                         practitioners when issues affecting the provision of safe, high-
                         quality care were identified.
                         A timeframe for the FPPE was clearly documented.
                         There was evidence that the provider was educated about FPPE
                         prior to its initiation.
                         FPPE results were reported to the MSEC.
                               Privileges and Scopes of Practice
                         The Service Chief, Credentialing Board, and/or MSEC list
                         documents reviewed and the rationale for conclusions reached for
                         granting licensed independent practitioner privileges.
                         Privileges granted to providers were setting, service, and provider
                         specific.
                         The determination to continue current privileges was based in part
                         on results of ongoing professional practice evaluation activities.
                                            Table 6. C&P

The CBOC was compliant with the review areas; therefore, we made no
recommendations


16
     VHA Handbook 1100.19.


VA OIG Office of Healthcare Inspections                                                         8
                                          CBOC Reviews at Chalmers P. Wylie Ambulatory Care Center


EOC and Emergency Management
EOC

To evaluate the EOC, we inspected patient care areas for cleanliness, safety, infection
control, and general maintenance. We reviewed relevant documents and interviewed
key employees and managers. Table 7 shows the areas reviewed for this topic.

        NC                                     Areas Reviewed
                    The CBOC was Americans with Disabilities Act-compliant, including:
                    parking, ramps, door widths, door hardware, restrooms, and
                    counters.
                    The CBOC was well maintained (e.g., ceiling tiles clean and in good
                    repair, walls without holes, etc.).
                    The CBOC was clean (walls, floors, and equipment are clean).
                    Material safety data sheets were readily available to staff.
                    The patient care area was safe.
                    Access to fire alarms and fire extinguishers was unobstructed.
                    Fire extinguishers were visually inspected monthly.
                    Exit signs were visible from any direction.
                    There was evidence of fire drills occurring at least annually.
                    Fire extinguishers were easily identifiable.
                    There was evidence of an annual fire and safety inspection.
                    There was an alarm system or panic button installed in high-risk
                    areas as identified by the vulnerability risk assessment.
                    The CBOC had a process to identify expired medications.
                    Medications were secured from unauthorized access.
                    Privacy was maintained.
                    Patients’ personally identifiable information was secured and
                    protected.
                    Laboratory specimens were transported securely to prevent
                    unauthorized access.
                    Staff used two patient identifiers for blood drawing procedures.
                    Information technology security rules were adhered to.
                    There was alcohol hand wash or a soap dispenser and sink available
                    in each examination room.
                    Sharps containers were less than 3/4 full.
                    Safety needle devices were available for staff use (e.g., lancets,
                    injection needles, phlebotomy needles).
                    The CBOC was included in facility-wide EOC activities.
                                            Table 7. EOC

The CBOC was compliant with the review areas; therefore, we made no
recommendations.




VA OIG Office of Healthcare Inspections                                                         9
                                          CBOC Reviews at Chalmers P. Wylie Ambulatory Care Center


Emergency Management
VHA policy requires each CBOC to have a local policy or standard operating procedure
defining how medical and MH emergencies are handled.17 Table 8 shows the areas
reviewed for this topic. The review elements marked as NC needed improvement.
Details regarding the findings follow the table.

           NC                                     Areas Reviewed
                       There was a local medical emergency management plan for this
                       CBOC.
                       The staff articulated the procedural steps of the medical emergency
                       plan.
                       The CBOC had an automated external defibrillator onsite for cardiac
                       emergencies.
           X           There was a local MH emergency management plan for this CBOC.
                       The staff articulated the procedural steps of the MH emergency
                       plan.
                                 Table 8. Emergency Management

MH Emergency Policy. Zanesville CBOC did not have a local plan or policy to instruct
staff on how to respond to and manage a MH emergency.

Recommendations

4. We recommended that managers develop a local policy for MH emergencies that
reflects the CBOC’s capability and that staff is trained in the procedural steps of the MH
emergency plan.




17
     VHA Handbook 1006.1.


VA OIG Office of Healthcare Inspections                                                        10
                                          CBOC Reviews at Chalmers P. Wylie Ambulatory Care Center
                                                                                       Appendix A
                           VISN 10 Director Comments


               Department of
               Veterans Affairs                                   Memorandum


       Date:       September 6, 2013

       From:       Director, VISN 10 (10N10)

       Subject: CBOC Reviews at Chalmers P. Wylie Ambulatory Care Center

       To:         Director, 54BA Healthcare Inspections Division (54BA)

                   Acting Director, Management Review Service (VHA 10AR MRS
                   OIG CAP CBOC)



    1. Thank you for the opportunity to review the report on the Community
    Based Outpatient Clinic reviews at the Chalmers P. Wylie Ambulatory Care
    Center, Columbus, Ohio. As always, I appreciate the opportunity to
    continuously improve services.

    2. I have reviewed the document and concur with the recommendations.
    Corrective actions have been established with planned completion dates, as
    detailed in the attached report. Should you have any questions, please feel
    free to contact Ms. Jane Johnson, Deputy Quality Management Officer, at
    (513) 247-4631.




VA OIG Office of Healthcare Inspections                                                        11
                                          CBOC Reviews at Chalmers P. Wylie Ambulatory Care Center
                                                                                       Appendix B
               Chalmers P. Wylie Ambulatory Care Center
                          Director Comments



               Department of
               Veterans Affairs                                   Memorandum


       Date:       September 4, 2013

       From:       Director, Chalmers P. Wylie Ambulatory Care Center (757/00)

       Subject: CBOC Reviews at Chalmers P. Wylie Ambulatory Care Center

       To:         Director, VISN 10 (10N10)




    1. Thank you for the opportunity to review the report on the Community
    Based Outpatient Clinic reviews at the Chalmers P. Wylie Ambulatory Care
    Center, Columbus, Ohio.

    2. I have reviewed the document and concur with the recommendations.
    Corrective actions have been established with planned completion dates, as
    detailed in the attached report.




    Keith Sullivan, FACHE
    Director




VA OIG Office of Healthcare Inspections                                                        12
                                          CBOC Reviews at Chalmers P. Wylie Ambulatory Care Center


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

1. We recommended that managers ensure that patients with normal cervical cancer
screening results are notified of results within the required timeframe and that
notification is documented in the EHR.

Concur

Target date for completion: August 30, 2013

In November 2012, changes were implemented to ensure timeframes for compliance
with results reporting and notification were met. Process changes provide immediately
available and visible results in CPRS with alerts to the provider. The notification of
normal PAP results by mail to Veterans was implemented in December 2012. The
notification letter becomes part of the Veteran’s record, visible in CPRS. Audits were
initiated in January 2013 and continue to ensure compliance with the process.

2. We recommended that managers ensure that clinicians administer pneumococcal
vaccinations when indicated.

Concur

Target date for completion: March 2014

We are in compliance with CDC recommendations for screening and/or administration
of an initial pneumococcal vaccine. The current process for screening and
administration of the pneumococcal revaccination will be strengthened and monitoring
will take place for one quarter following the revised process to ensure compliance.
Ongoing periodic monitoring will occur to ensure sustained results.

3. We recommended that managers ensure that clinicians document all required
tetanus vaccine administration elements and that compliance is monitored.

Concur

Target date for completion: August 30, 2013

A new process to ensure compliance with documentation of all required tetanus vaccine
administration elements was implemented February 25, 2013. Audits began in March
2013 and continue to show 100% compliance with documentation of all required
elements for tetanus vaccine administration. Regular monitoring will be completed by




VA OIG Office of Healthcare Inspections                                                        13
                                          CBOC Reviews at Chalmers P. Wylie Ambulatory Care Center


August 30, 2013 to ensure compliance with periodic monitoring to continue to ensure
sustained compliance.

4. We recommended that managers develop a local policy for MH emergencies that
reflects the CBOC’s capability and that staff is trained in the procedural steps of the MH
emergency plan.

Concur

Target date for completion: December 1, 2013

The current CBOC Scope of Services policy and processes will be revised to ensure the
CBOC response to MH emergencies is clearly outlined and education of all CBOC staff
to ensure compliance will be provided.




VA OIG Office of Healthcare Inspections                                                        14
                                          CBOC Reviews at Chalmers P. Wylie Ambulatory Care Center
                                                                                       Appendix C


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Melanie Oppat, MEd., LDN, Project Leader
Contributors            Terri Julian, Ph.D., Team Leader
                        Donald Braman, RN, BSN
Other                   Shirley Carlile, BA
Contributors            Margie Chapin, RT (R), JD
                        Jennifer Christensen, DPM
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH, MBA
                        Cynthia Gallegos
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        Patrick Smith, M. Stat
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                        15
                                          CBOC Reviews at Chalmers P. Wylie Ambulatory Care Center
                                                                                       Appendix D


                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VISN 10 (10N10)
Director, Chalmers P. Wylie Ambulatory Care Center (757/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Sherrod Brown, Rob Portman
U.S. House of Representatives: Joyce Beatty, Jim Jordan, Patrick Tiberi, Steve Stivers


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                        16
